NATIONAL CREDIT UNION ADMINISTRATION

    OFFICE OF INSPECTOR GENERAL



        SEMIANNUAL REPORT
                TO
           THE CONGRESS

          April 1 – September 30, 2011
TABLE OF CONTENTS

INSPECTOR GENERAL'S MESSAGE ................................................................................................................. i

THE NCUA AND OFFICE OF INSPECTOR GENERAL MISSIONS ........................................................... 1

INTRODUCTION..................................................................................................................................................... 2

NCUA HIGHLIGHTS .............................................................................................................................................. 5

FEDERALLY INSURED CREDIT UNION HIGHLIGHTS ............................................................................. 7

LEGISLATIVE HIGHLIGHTS ............................................................................................................................... 9

OFFICE OF THE INSPECTOR GENERAL ..................................................................................................... 11

AUDIT ACTIVITY ................................................................................................................................................ 12

INVESTIGATIVE ACTIVITY ............................................................................................................................. 21

LEGISLATIVE AND REGULATORY REVIEWS .......................................................................................... 24

TABLE I: INSPECTOR GENERAL ISSUED REPORTS WITH QUESTIONED COSTS ..................... 26

TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE .................................................................................................................. 27

TABLE III: SUMMARY OF OIG ACTIVITY APRIL 1 THROUGH SEPTEMBER 30, 2011 ............. 28

INDEX OF REPORTING REQUIREMENTS.................................................................................................. 29

APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)............................ 30
OIG Semiannual Report                                                April 1 – September 30, 2011




                            INSPECTOR GENERAL'S MESSAGE
                        TO THE NCUA BOARD AND THE CONGRESS

 It is my pleasure to submit this Semiannual Report on the accomplishments of the National
 Credit Union Administration (NCUA) Office of Inspector General (OIG) for the six-month period
 ending on September 30, 2011.          This report summarizes the major activities and
 accomplishments of the OIG during this reporting period.

 The NCUA OIG strives to carry out its mission to promote efficiency and effectiveness in NCUA
 programs and operations. This reporting period is no exception. In the past six months, the
 OIG has been active on both the audit and investigative sides of the office.

 On the audit side, while conducting and reporting on Material Loss Reviews (MLRs) remained a
 major focus, we also completed a review of building security measures at the NCUA’s Central
 Office and Region II facility. The review assessed the adequacy of physical building security
 measures, including (a) security operations and administration; (b) facility entrance security;
 (c) security systems; and (d) site and interior security. In response to our specific
 recommendations, the agency made and has planned substantive security improvements. The
 Office of Audit also issued a report on NCUA’s Document of Resolution (DOR) follow-up
 process. That review focused on the agency’s process for the resolution/closure of DORs and
 the effectiveness of the current resolution process. Based on the deficiencies the review
 uncovered, we made three recommendations and one suggestion. Management agreed with
 our findings and recommendations, and has already or is in the process of taking corrective
 action.
 On the investigative side, we investigated and reported on an administrative case involving
 employee misuse of the government computer to send and receive, respectively, over 700
 pornographic photographs of himself and adult females. This case stemmed from an ongoing
 FBI criminal investigation and referral that the same employee was sending pornographic
 photographs of himself to an undercover agent posing as a twelve year old female. We found
 the administrative allegations in the case were substantiated; based on our report and the
 record as a whole, the agency has proposed the employee’s removal. In another case, we
 investigated and reported on allegations that an NCUA employee had committed bank fraud.
 In that case, we found that the allegations were unsubstantiated. Finally, in the wake of the
 departure in July of our former Director of Investigations, the OIG hired a new Director of

                                                i
OIG Semiannual Report                                                  April 1 – September 30, 2011


 Investigations, Michael Egan, who comes to us from the United States Postal Service Office of
 Inspector General.

 During the reporting period, the OIG, under advisement of the OIG Counsel, provided
 significant input to the agency in its bargaining contract renewal negotiations with the National
 Treasury Employees Union, regarding warnings and union representation at OIG interviews.
 The OIG appreciates greatly the dialogue that ensued with agency representatives and we feel
 comfortable that the unique role of the OIG within NCUA will continue to be represented
 accurately to the NTEU and NCUA employees alike.

 I would like to thank Chairman Matz, and Board Members Hyland and Fryzel for their sustained
 support of the OIG’s work. Our office is committed to assisting the NCUA in ensuring the
 safety and soundness of credit unions as we work with the agency to achieve needed changes
 and improvements to NCUA’s programs and activities.




                                       William A. DeSarno
                                       Inspector General




                                                ii
OIG Semiannual Report                                                      April 1 – September 30, 2011




                                       THE NCUA MISSION

     NCUA’s charge is to provide, through regulation and supervision, a safe and sound credit union
     system which promotes confidence in the national system of cooperative credit.




                        THE OFFICE OF INSPECTOR GENERAL MISSION

     The OIG promotes the economy, efficiency, and effectiveness of NCUA programs and
     operations, and detects and deters fraud, waste, and abuse, thereby supporting the NCUA’s
     mission of monitoring and promoting safe and sound federally insured credit unions.


     We accomplish our mission by conducting independent audits, investigations, and other
     activities, and by keeping the NCUA Board and the Congress fully and currently informed of our
     work.




                                                    1
OIG Semiannual Report                                                         April 1 – September 30, 2011




                                           INTRODUCTION

 The NCUA was established as an independent, federal regulatory agency on March 10, 1970. The
 agency is responsible for chartering, examining, supervising, and insuring federal credit unions. It also
 insures state-chartered credit unions that have applied for insurance and have met National Credit
 Union Share Insurance requirements. The NCUA is funded by the credit unions it supervises and
 insures. As of June 30, 2011, the NCUA was supervising and insuring 4,534 federal credit unions and
 insuring 2,705 state-chartered credit unions, a total of 7239 institutions. This represents a decline of 55
 federal and 45 state-chartered institutions since December 31, 2010, for a total decline of 100 credit
 unions nationwide, primarily as a result of mergers and liquidations.




                                     Federally Insured Credit Unions


                  9000

                  8000

                  7000
                            3065
                                    2959       2840
                  6000                                    2750      2705

                  5000
                                                                                             FISCUs
                  4000                                                                       FCUs
                  3000
                            5036    4847       4714       4589      4534
                  2000

                  1000

                        0
                            2007    2008      2009        2010      2011




 The NCUA operates under the direction of a Board composed of three members. Board members are
 appointed by the President and confirmed by the Senate. They serve six-year terms. Terms are
 staggered, so that one term expires every two years. The Board is responsible for the management of
 the NCUA, including the NCUA Operating Fund, the Share Insurance Fund, the Central Liquidity
 Facility, the Community Development Revolving Loan Fund, and the Temporary Corporate Credit
 Union Stabilization Fund.




                                                      2
OIG Semiannual Report                                                       April 1 – September 30, 2011


 The NCUA executes its program through its central office in Alexandria, Virginia and regional offices in
 Albany, New York; Alexandria, Virginia; Atlanta, Georgia; Austin, Texas; and Tempe, Arizona. The
 NCUA also operates the Asset Management and Assistance Center (AMAC) in Austin, Texas. Please
 refer to the NCUA organizational chart below.




                                                    3
OIG Semiannual Report                                                          April 1 – September 30, 2011


     The NCUA Board adopted its 2011 budget of $225,403,988 on November 18, 2010. The Full-
     Time Equivalent (FTE) staffing authorization for 2011 is 1,209 representing an increase of 97
     FTEs from 2010.




                                                NCUA Budget Dollars
                                  250


                                  200
                  Millions




                                  150


                                  100


                                  50


                                   0
                                         2007   2008         2009       2010         2011




                                                NCUA Authorized Staff
                                  1250
                                  1200
                                  1150
                Employees (FTE)




                                  1100
                                  1050
                                  1000
                                  950
                                  900
                                  850
                                         2007   2008         2009       2010         2011




                                                         4
OIG Semiannual Report                                                         April 1 – September 30, 2011




                                         NCUA HIGHLIGHTS

 NCUA Ranked Among Top Performing Agencies
 On September 23, 2011, the U.S. Office of Personnel Management (OPM) released the results of the
 2011 Employee Viewpoint Survey, giving high marks to the NCUA among 37 agencies ranked. The
 survey is a tool that measures employees’ perceptions of whether, and to what extent, conditions
 characterizing successful organizations are present in their agencies. Survey results provide valuable
 insights into the challenges agency leaders face in ensuring the Federal government has an effective
 civilian workforce and how well they are responding. In three of the survey’s four indices, NCUA
 ranked as one of the “top performing” agencies:
     •   NCUA ranked fourth in the category “results-oriented performance culture,” up from tenth place
         in 2010;
     •   NCUA held its position as sixth in “talent management;”
     •   Most significantly, NCUA tied for fifth place in “job satisfaction,” up from the eleventh spot in
         2010; and
     •   For “leadership and knowledge management,” the only metric where NCUA did not rank in the
         top ten, OPM’s report noted that the agency had significant improvement over 2010.

 NCUA Executive Director Marquis Testifies on Underbanked Credit
 National Credit Union Administration Executive Director David Marquis testified, on September 22,
 2011, before the House Financial Services Subcommittee on Financial Institutions and Consumer
 Credit on the availability of credit for and lending to people who primarily use alternative financial
 services, also called the underbanked. Since December 2007, credit union loans expanded by 6
 percent. Concurrently, low-income credit unions (LICUs) nearly tripled in assets and lending and
 doubled in members. In 2003, Marquis testified, there were 963 LICUs with $15.2 billion in assets,
 $9.9 billion in loans, and 3.2 million members. As of June 30, 2011, there were 1,118 LICUs with
 $44.3 billion in assets, $27.2 billion in loans, and 6.1 million members. Marquis stated that during the
 period, LICUs increased loan growth by more than twice the rate of loans at other credit unions, 14
 percent versus 6 percent. Notably, real estate lending by LICUs grew by 29 percent versus 12 percent
 at other credit unions. Marquis also discussed NCUA’s rule on short-term, small amount loans,
 finalized in September 2010. The rule allows federal credit unions to offer members an alternative to
 payday lenders. “With strong consumer protections,” Marquis stated, “the rule balances increased risk
 with access to affordable, fully amortized credit that is faster and easier to qualify for.” Since its
 introduction, the small loan product has gained growing market acceptance and enhanced the
 availability of short-term credit. Today, 343 federal credit unions report more than 33,000 small loans,
 averaging $412 each with just below a 21 percent interest rate, significantly lower than the triple-digit
 interest rates often charged by payday lenders.

 NCUA Board Sets 2011 Temporary Corporate Credit Union Stabilization Fund Assessment
 At a special open meeting convened by the NCUA Board on August 29, 2011, the Board set the 2011
 Temporary Corporate Credit Union Stabilization Fund at 25 basis points for a total of $1.96 billion.
 The Board based the 2011 assessment of 25 basis points on projected fixed, near-term net cash flow
 needs with the expectation that future assessments would be considerably lower. Funds generated

                                                     5
OIG Semiannual Report                                                         April 1 – September 30, 2011


 from the 2011 assessment, along with borrowed funds from the U.S. Treasury, will pay the principal
 and interest on maturing medium term notes issued by corporate credit unions and guaranteed by the
 Stabilization Fund, and the guaranteed notes issued to the bridge corporate credit unions. As required
 by law, the Board took into consideration the potential negative impact of this assessment on credit
 union earnings by annualizing June 30 call report figures.

 NCUA Board Creates Oversight Plan to Maintain NCUA Guaranteed Notes
 At the same August 29, 2011, open meeting, the NCUA Board approved the creation of the NCUA
 Guaranteed Notes (NGN) Securities Management and Oversight Committee and associated staff
 positions to ensure the achievement of the objectives for the NGN initiative and sound management of
 the Stabilization Fund. In approving the delegation, the Board charged the group with ensuring that
 NCUA fulfills its ongoing responsibilities of the corporate resolution process in a manner that promotes
 transparency, efficiency, and accountability. The NGN’s require long-term monitoring, managing, and
 reporting on very complex transactions for at least the next 10 years. Creation of the NGN Securities
 Management and Oversight Committee addresses the need for long-term, streamlined management
 of the NGN initiative’s daily activities. The Stabilization Fund will fund costs associated with staffing
 and operating the committee, including consultants.

 Chairman Matz Attests to Congress her Approval of the FSOC’s First Annual Report
 Chairman Debbie Matz attested to Congress, on July 26, 2011, her approval of the Financial Stability
 Oversight Council’s (FSOC) Annual Report and recommendations as the FSOC released its first
 annual review of emerging risks in the financial system. Chairman Matz was one of 10 FSOC
 members that attested to the report. During the past year, NCUA worked with other regulators on the
 FSOC to implement the initiatives mandated by the “Dodd-Frank Wall Street Reform and Consumer
 Protection Act” to restore integrity in the markets and strengthen the public’s trust in the financial
 system. The FSOC report identified declining real estate prices, a sudden increase in term premiums
 on U.S. government debt, and an escalation of the European sovereign debt crisis as issues that
 could trouble the economy going forward. The council, which provides a forum for discussion between
 various regulatory agencies, is composed of ten voting members—nine federal financial regulatory
 agencies and an independent member with insurance expertise—and five nonvoting members. In
 addition to Chairman Matz, voting members of the council include the Secretary of the Treasury, who
 serves as the Chairperson of the FSOC; the Chairman of the Board of Governors of the Federal
 Reserve System (Fed); the Director of the Consumer Financial Protection Bureau (CFPB); the
 Chairman of the Securities and Exchange Commission (SEC); the Chairperson of the Federal Deposit
 Insurance Corporation (FDIC); the Chairperson of the Commodity Futures Trading Commission
 (CFTC); the Comptroller of the Currency (OCC); and the Director of the Federal Housing Finance
 Agency (FHFA). The independent member is appointed by the President and confirmed by the
 Senate for a six-year term. The non-voting members serve in an advisory capacity. The council will
 also oversee the resolution of troubled financial institutions.

 NCUA Finalizes Voluntary Prepayment of Stabilization Fund Assessments Plan
 Responding to requests and feedback from credit unions, the NCUA Board, at its June 29, 2011
 meeting, adopted a plan to permit voluntary prepayments of $500 million in Corporate Stabilization
 Fund assessments. Under the program, NCUA will solicit and collect voluntary advances of certain
 Stabilization Fund assessments due in 2013 and thereafter so as to level assessments in 2011 and
 2012. The approved program has the potential to decrease the currently projected 2011 Stabilization
 Fund assessment by 6.4 basis points from 24.9 to 18.5 basis points of insured shares. NCUA


                                                     6
OIG Semiannual Report                                                       April 1 – September 30, 2011


 designed the voluntary prepayment of Stabilization Fund assessments program with the following
 principles in mind:
       •   Setting assessments in a counter-cyclical manner relative to credit union performance and
           providing resolution to the corporate crisis during this economic cycle;
       •   Maintaining a meaningful contingency in Treasury borrowing capacity; and
       •   Using credit union prepayments to meaningfully reduce near-term Stabilization Fund
           assessments.

 Chairman Matz Named FFIEC Chair
 In early April the Federal Financial Institutions Council (FFIEC) announced that, for the first time in
 more than 20 years, the NCUA Board Chairman is now the Chairman of the FFIEC for a two-year
 term. Chairman Matz succeeds Sheila C. Bair, former Chairman of the Federal Deposit Insurance
 Corporation. FFIEC also named acting Comptroller of the Currency John Walsh as its new Vice
 chairman. The FFIEC was established by Congress in 1979 to prescribe uniform principles,
 standards, and report forms for the federal examination of financial institutions, to make
 recommendations to promote uniformity in the supervision of financial institutions, and to conduct
 schools for examiners. The Council has six voting members: the Comptroller of the Currency, the
 Chairman of the Board of Directors of the FDIC, the Governor of the Fed Board of Governors, the
 Director of the Office of Thrift Supervision, the NCUA Chairman, and the Chairman of the State Liaison
 Committee.




                                                    7
OIG Semiannual Report                                                        April 1 – September 30, 2011


                        FEDERALLY INSURED CREDIT UNION HIGHLIGHTS

 Credit unions submit quarterly call reports (financial and operational data) to the NCUA. An NCUA staff
 assessment of the June 30, 2011, quarterly call reports submitted by all federally insured credit unions
 found that key financial indicators are mixed.

 Key Financial Indicators Mixed
 Looking at the June 30, 2011 quarterly statistics for major balance sheet items and key ratios shows
 the following for the nation’s 7,239 federally insured credit unions: assets grew .3 percent; net worth to
 assets ratio increased from 10.06 to 10.14 percent; the loan to share ratio decreased from 71.81
 percent to 69.44 percent. However, the delinquency ratio decreased from 1.76 to 1.58 percent; and
 credit union return on average assets increased from .51 percent to .77 percent.

 Savings Shifting to Regular Shares
 Total share accounts increased 3.28 percent. Regular shares increased 8.42 percent. Regular shares
 comprise 29.44 percent of total share accounts; share certificates comprise 25.43 percent; money
 market shares comprise 22.66 percent; share draft accounts comprise 11.65 percent; and all other
 share accounts comprise 10.82 percent.

 Loan Volume Flat
 Loans declined .13 percent resulting in a decrease in total loans by $.7 billion. Total net loans of $564
 billion comprise 60 percent of credit union assets. First mortgage real estate loans are the largest
 single asset category with $227.3 billion accounting for 40.29 percent of all loans. Other real estate
 loans of $83.3 billion account for 14.77 percent of all loans. Used car loans of $103.57 billion were
 18.36 percent of all loans, while new car loans amounted to $59.51 billion or 10.55 percent of total
 loans. Credit card loans totaled $35.25 billion or 6.25 percent of total loans and other loans totaled
 $55.13 billion for 9.77 percent of total loans.




                                                     8
OIG Semiannual Report                                                          April 1 – September 30, 2011




                                     LEGISLATIVE HIGHLIGHTS

 First Dodd-Frank Anniversary Marks Implementation Date for New Consumer Rules
 The one-year anniversary of the “Dodd-Frank Wall Street Reform and Consumer Protection Act”
 served as the start date for three noteworthy consumer-focused, self-effectuating provisions that credit
 unions must implement.
     •   Fair Credit and Equal Opportunity Changes: Dodd Frank amendments to the Fair Credit
         Reporting Act (FCRA) and the Equal Credit Opportunity (ECOA) became effective July 21,
         2011. These changes update FCRA and ECOA forms with new credit score disclosure
         requirements. Similarly, they update notifications to combine adverse action notice and new
         credit score disclosure requirements. The changes together promote accuracy, privacy, and
         equality in reporting and applying for credit. Such disclosures help the consumer better
         understand their credit rights.
     •   Truth in Lending Reforms: Amendments to the Truth in Lending Act (Regulation Z) and the
         Consumer Leasing Act (Regulation M) also became effective in late July. These amendments
         apply to certain consumer credit transactions and consumer leases up to $50,000, compared
         with $25,000 before Dodd-Frank. This maximum will adjust annually to reflect increases in the
         Consumer Price Index. Private loans and loans subject to real property are not exempt,
         regardless of the amount.
     •   Expedited Funds Thresholds Raised: The last self-effectuating amendment is an update to the
         Expedited Funds Availability Act (Regulation CC). This rule requires credit unions to make
         $200 available for withdrawal on the business day after receiving the deposit, an increase from
         $100. This change allows consumers access to a greater portion of a deposit no matter what
         the previous hold policy was on deposited checks. Congress mandated this change so
         consumers could access more of their money more quickly, but NCUA will need to monitor the
         increased risk exposure involved.

     New Credit Score Notice Requirements
     As of July 21, 2011, credit unions and other lenders began complying with credit score
     disclosure regulations recently issued by the Federal Reserve Board and the Federal Trade
     Commission. Required by Dodd-Frank, these new rules allow consumers to receive more
     information about how their credit scores affect certain lending decisions. Congress mandated
     these changes, outlined below, to help consumers verify the accuracy of the information
     contained in their credit reports.


         •   Credit Score Notice: Under the new rule, lenders must provide a notice to consumers—
             regardless of the terms of credit offered to the consumer--detailing the consumer’s credit
             score and information about how it compared to other consumers. If a consumer does
             not have a credit score, the lender will identify which credit bureau did not provide a
             credit score.
         •   Risk-Based Pricing Notice: The new rule also requires certain consumers to receive a
             risk-based pricing notice. Risk-based pricing refers to the practice of setting or adjusting
             the price and other terms of credit provided to a consumer based on the consumer’s

                                                      9
OIG Semiannual Report                                                         April 1 – September 30, 2011


             creditworthiness. A consumer will only receive this type of notice if the consumer is
             offered credit on terms that are less favorable than the terms offered to other consumers
             because of information contained in the consumer’s credit report.
         •   Account Review Notice: If a consumer’s APR on an existing credit account is increased
             based on a review of the consumer’s credit report, the consumer may now receive an
             account review notice. For example, some credit card issuers conduct periodic reviews
             of customers’ credit reports. If a consumer’s credit report has changed since the initial
             application for the credit card, the issuer might increase the APR to account for the
             increased risk. Under these circumstances, a consumer will now receive a notice
             providing the credit report information that resulted in the APR increase.

 Chairman Matz Comments on Interchange Rule
 In response to the Federal Reserve Board’s approval on June 29, 2011, of a final rule on interchange
 fee limits required by Section 1705 of the “Dodd-Frank Wall Street Reform and Consumer Protection
 Act,” NCUA Board Chairman Debbie Matz praised the new rule, stating that the new rule took into
 account NCUA’s concerns about the impact on the safety and soundness of small credit unions. The
 Fed’s rule places a 21 cents cap on debit transactions plus an additional cent to help pay for fraud
 protection and five more basis points to account for losses due to fraud. The new rule, which took
 effect on October 1, 2011, was a change from the proposed rule which would have capped fees at 12
 cents.
 Chairman Matz stated that while NCUA had strong concerns about the initial interchange fee proposal,
 she stated her belief that the final regulation addressed those concerns. Specifically, she praised the
 Fed for taking into account credit unions with less than $100 million in assets. She stated that the
 higher interchange fee amounts were a “step in the right direction.” Chairman Matz stated further that
 NCUA will monitor carefully the implementation of the interchange feel limit rule and will study
 “whether the rule creates unintended consequences for or imposes disproportionate burdens on
 smaller credit unions.” Some credit union industry representatives opined that they did not believe the
 rule went far enough in covering the costs for small issuers.

 NCUA Asks Congress to Lift Cap on Member Business Lending
 In testimony before the Senate Committee on Banking, Housing and Urban Affairs on June 16, 2011,
 Chairman Matz asked Congress to lift the present statutory cap on credit union member business
 lending (MBL). The crux of her testimony supported the Small Business Lending Enhancement Act
 (S. 509), a bill that would alter the cap on MBL for credit unions. The present statutory cap establishes
 the aggregate limit on a credit union’s net member business balance as the lesser of 1.75 times the
 credit union’s net worth or 12.25 percent of total assets, with certain exceptions. Chairman Matz
 testified that “[t]he current statutory cap deters many credit unions from fully serving the business
 lending marketplace.” She stated further that the bill “would allow more credit unions to achieve the
 economies of scale necessary to make greater investments in business lending expertise and
 systems, engage in prudent underwriting, and diversity their portfolios.”
 NCUA’s testimony supports increasing the current statutory MBL limitation. Under the proposed bill,
 experienced, well-capitalized credit unions, consistent with safety and soundness, could increase
 member business lending portfolios on a gradual basis, by no more than 30 percent annually, up to a
 new cap of 27.5 percent of a credit union’s total assets.




                                                    10
OIG Semiannual Report                                                      April 1 – September 30, 2011




                            OFFICE OF THE INSPECTOR GENERAL

 The Office of the Inspector General was established at the NCUA in 1989 under the authority of the
 Inspector General Act of 1978, as amended. The staff consists of the Inspector General, Deputy
 Inspector General, Counsel to the Inspector General, Director of Investigations, three Senior Auditors,
 Senior Information Technology Auditor, and Office Manager.
 The Inspector General reports to, and is under the general supervision of, the NCUA Board. The
 Inspector General is responsible for:
         1. Conducting, supervising, and coordinating audits and investigations of all NCUA programs
            and operations;
         2. Reviewing policies and procedures to ensure efficient and economic operations as well as
            preventing and detecting fraud, waste, and abuse;
         3. Reviewing existing and proposed legislation and regulations to evaluate their impact on the
            economic and efficient administration of agency programs; and
         4. Keeping the NCUA Board and the Congress apprised of significant findings and
            recommendations.

                                 NCUA OIG ORGANIZATIONAL CHART




                                                   11
OIG Semiannual Report                                                      April 1 – September 30, 2011




                                         AUDIT ACTIVITY

     Audit Reports Issued


 OIG-11-01 – May 4, 2011
 Material Loss Review of Members United Corporate FCU
 Our review determined Members United’s management and Board of Directors (Board) contributed
 to the conservatorship of Members United and resulting material loss to the Temporary Corporate
 Credit Union Stabilization Fund (TCCUSF). Specifically, management and the Board’s inadequate
 oversight resulted in Members United purchasing significant holdings of private-label mortgage-
 backed securities, many of which were later downgraded to subprime and Alt-A that exposed the
 credit union to excessive amounts of financial risk. Members United’s management and the Board
 failed to identify and manage this risk exposure prior to the mortgage-backed securities market
 dislocation that occurred in mid-2007.
 Members United’s management and Board failed to recognize the substantial risk they were
 undertaking with significant investments in complex mortgage-backed securities, with a substantial
 portion of these securities backed by subprime assets. Management allowed the investments in
 mortgage-backed products to represent a significant concentration compared to net worth and they
 failed to impose limits in these securities.
 We also determined NCUA failed to adequately assess or timely identify key risks related to
 Members United’s investment portfolio related to the concentration of mortgage-backed securities,
 until it was too late. The lack of adequate and timely oversight of Members United was partially
 attributable to corporate examiners not having the appropriate regulatory support, such as more
 specific investment concentration limits, to adequately address Members United’s concentration risk
 and the exposure to credit, market, and liquidity risks.
 We believe stronger and timelier supervisory action regarding Members United’s concentration in
 mortgage-backed securities could have resulted in a reduced loss to the TCCUSF. Although NCUA
 does not provide examiners with specific guidance regarding sector concentration limits, we believe
 NCUA examiners should have recognized the risk exposure that Members United’s significant
 concentration in mortgage-backed securities represented earlier than 2007 and 2008.
 We made three recommendations in this report to address findings identified that have not
 previously been reported to NCUA in our Capping Report. NCUA Management agreed with all
 three recommendations and has either already taken corrective action or plans to take corrective
 action in the near future to address each recommendation.

 OIG-11-02/03/04/05 – May 12, 2011
 NCUA Financial Statements Audit 2010: Operating Fund, Central Liquidity Facility, Community
 Development Revolving Loan Fund, and Share Insurance Fund
 Our contracting audit firm, KPMG LLP, issued opinions on the 2010 financial statements of the National
 Credit Union Administration Operating Fund, Central Liquidity Facility, Community Development
 Revolving Loan Fund, and the National Credit Union Share Insurance Fund. The auditors found that the


                                                   12
OIG Semiannual Report                                                        April 1 – September 30, 2011


 financial statements presented fairly the financial position of the agency’s funds as of December 31,
 2010.

 The NCUA Operating Fund (OIG-11-02) was established as a revolving fund managed by the NCUA
 Board for the purpose of providing administration and service to the federal credit union system. The
 auditors issued an unqualified opinion on the Operating Fund’s financial statements. The fund’s total
 assets for 2010 were $75.6 million, up from $66 million in 2009.

 The Central Liquidity Facility (OIG-11-03) was established as a mixed ownership government
 corporation managed by the NCUA Board to improve general financial stability by meeting the liquidity
 needs of credit unions. The auditors issued an unqualified opinion on the Central Liquidity Facility’s
 (CLF) financial statements. The CLF’s total assets for 2010 were $2 billion, down from $20.2 billion in
 2009. The decline in total assets is the result of maturing loans made by CLF during the financial crisis
 (in particular, the $8.3 billion Credit Union System Investment Program and the $10 billion loan to the
 NCUSIF matured prior to yearend 2010).

 The Community Development Revolving Loan Fund’s (OIG-11-04) purpose is to stimulate
 economic activities in the communities served by low-income credit unions. This in turn will result in
 increased income, ownership and employment opportunities for low-wealth residents and other
 economic growth. The auditors issued an unqualified opinion on the Fund’s financial statements.
 The Community Development Revolving Loan Fund’s total assets for 2010 were $17.1 million,
 down from $17.8 million in 2009

 The National Credit Union Share Insurance Fund (OIG-11-05) was established as a revolving fund
 managed by the NCUA Board to insure member share deposits in all Federal credit unions and
 qualifying state credit unions. The auditors issued an unqualified opinion on the Share Insurance
 Fund’s financial statements. The Fund’s total assets for 2010 were $10.9 billion.

 OIG-11-06 – June 23, 2011
 Review of Facility Security at NCUA Central Office
 The National Credit Union Administration (NCUA) Office of Inspector General (OIG) conducted a
 review of facility security at NCUA’s Central Office. We reviewed facility security to: (1) assess the
 adequacy of physical building security measures at NCUA’s Central Office. Within this objective,
 we placed a particular emphasis upon reviewing building security access and controls, specifically
 related to: (a) security operations and administration; (b) facility entrance security; (c) security
 systems, and (d) site and interior security.
 Because this report contains proprietary information and addresses issues associated with physical
 security, we do not intend to release the specific findings to the public. We made three
 recommendations to correct the deficiencies found.          Management agreed with our first
 recommendation and agreed with all but one aspect of our second recommendation. However,
 management disagreed with our third recommendation. After reviewing the agencies reasoning we
 agreed and consider all three recommendations as resolved.



 OIG-11-07 –June 7, 2011
 Material Loss Review of Beehive Credit Union
 We determined Beehive failed because Management did not effectively manage the risks, policies,
 operations, and financial position of Beehive, nor did they demonstrate an understanding of the risks

                                                      13
OIG Semiannual Report                                                       April 1 – September 30, 2011


 inherent in their strategic decisions. In addition, both the Board of Directors and management lacked
 sufficient and responsive action to address repeat findings raised by examiners related to
 concentrations, Allowance for Loan and Lease Losses (ALLL) methodology, and asset quality.
 We also determined the Utah Division of Financial Institutions, the State Supervisory Authority, and the
 NCUA contributed to the failure of Beehive because neither performed a supervisory contact for 32
 months – from March 2006 to November 2008. We believe this 32-month supervisory lapse came at a
 critical time and prevented examiners from detecting the deficiencies and curtailing the risky lending
 practices that eventually led to Beehive’s insolvency.
 In November 2008, the NCUA adopted changes to its risk-based examination scheduling policy and
 now requires an annual examination or material on-site supervision for FISCU’s with assets greater
 than $250 million, and allows for additional contact if warranted by risk profiles and negative trends.
 We believe this change is important and will prevent the supervision gap that occurred with Beehive
 from happening in the future. As a result, we are making no formal recommendations as a result of the
 findings in this report.

 OIG-11-08 –September 1, 2011
 Material Loss Review of Certified Federal Credit Union
 We determined Certified failed for the following reasons: 1) Inaccurate financial reporting and weak
 accounting practices and internal controls, 2) weak board oversight, and 3) inadequate risk
 management practices.
 In addition, we determined examiners and Region V management missed opportunities to prevent or
 reduce the loss to the NCUSIF. Specifically, examiners did not:
     •   Adequately assess the Management component of the CAMEL rating system.
     •   Adequately consider external audit findings and reviews when developing their examination
         procedures; or
     •   Apply appropriate administrative remedies when their own fraud investigation into the CEO’s
         fiduciary duties raised serious safety and soundness concerns due to the CEO’s business
         practices and ethical behavior.
 Based on our review of the causes of Certified’s failure, we made three recommendations to NCUA
 management that we believe would correct identified deficiencies. Management agreed with all three
 recommendations and has already or is in the process of taking corrective action.

 OIG-11-09 –September 1, 2011
 Material Loss Review of Constitution Corporate Federal Credit Union
 Our review determined Constitution’s management and Board of Directors (Board) contributed to the
 conservatorship of Constitution and resulting material loss to the Temporary Corporate Credit Union
 Stabilization Fund (TCCUSF). Specifically, management and the Board’s inadequate oversight
 resulted in Constitution purchasing significant holdings of private-label mortgage-backed securities,
 many of which were later downgraded to below investment grade, which exposed the credit union to
 excessive amounts of financial risk. Constitution’s management and the Board failed to identify and
 manage this risk exposure prior to the mortgage-backed securities market dislocation that occurred in
 mid-2007
 In addition, we determined NCUA failed to adequately assess or timely identify key risks related to
 Constitution’s investment portfolio related to the concentration of mortgage-backed securities, until it
 was too late. We also determined the lack of adequate and timely oversight of Constitution was

                                                     14
OIG Semiannual Report                                                         April 1 – September 30, 2011


 partially attributable to corporate examiners not having the appropriate regulatory support, such as
 more specific investment concentration limits, to adequately address Constitution’s concentration risk
 and the exposure to credit, market, and liquidity risks.
 We believe stronger and timelier supervisory action regarding Constitution’s concentration in mortgage-
 backed securities could have resulted in a reduced loss to the TCCUSF. NCUA regulations did not
 provide corporates with specific limits for concentrations of credit risk. We believe NCUA examiners
 should have recognized the risk exposure that Constitution’s significant concentration in mortgage-
 backed securities represented earlier than August 2008.
 This report includes three repeat recommendations from an earlier OIG report (OIG-11-01) and we
 recognize that NCUA management has already taken or agreed to take action to resolve these
 concerns. In addition, we made one new recommendation to address findings related to utilization of
 agency resources. NCUA Management agreed with the recommendation and is taking corrective
 action to address this recommendation.

 OIG-11-10 –September 22, 2011
 Material Loss Review of Southwest Corporate Federal Credit Union
 We determined Southwest’s management and Board of Directors (management) did not implement
 appropriate risk management practices to adequately limit or control significant risks in its investment
 strategy. Management’s actions resulted in substantial exposure to privately-issued residential
 mortgage-backed securities (RMBS), which resulted in significant concentration risk and left Southwest
 vulnerable to significant credit, market, and liquidity risks. Management’s actions contributed directly to
 the conditions that led to NCUA placing Southwest into conservatorship on September 24, 2010 and
 involuntarily liquidating the corporate effective October 31, 2010. NCUA expects the estimated loss to
 its Stabilization Fund from Southwest’s failure to be $141 million.
 In addition, we determined that NCUA Office of Corporate Credit Unions (OCCU) staff did not
 adequately and timely address the risks associated with Southwest’s direct concentration of and
 indirect exposure to privately-issued RMBS. We believe this occurred in part because OCCU staff did
 not properly aggregate or correlate Southwest’s concentration of privately-issued RMBS. In addition,
 OCCU staff did not have the appropriate regulatory support in the form of specific investment
 concentration limits to address the growing and risky concentrations that OCCU staff reviewed during
 its examinations. Furthermore, NCUA regulations: (1) did not place any limits on corporate investments
 with other corporates; and (2) did not require special emphasis on monitoring such investments with
 other corporates.
 We also determined NCUA’s assessment of Southwest’s credit risk may have been improved had
 NCUA’s policies and procedures required independent analysis of Southwest’s credit exposure and
 potential risk.
 NCUA management agreed with our recommendation and indicated NCUA already has an active
 working group identifying elevated risk posed by large, complex institutions and developing appropriate
 strategies to supervise those institutions.

 OIG-11-11–September 29, 2011
 Review of NCUA’s Document of Resolution Follow-up Process
 We determined that neither NCUA’s Office of Examination nor Insurance (E&I), nor the five regional
 offices, effectively monitored or followed up on unresolved DOR items. Specifically, we found that E&I
 performed limited DOR monitoring and that monitoring in each region varied based on their individual
 policy. Accordingly, NCUA is developing the National Supervision Policy Manual to replace the


                                                     15
OIG Semiannual Report                                                     April 1 – September 30, 2011


 individual regional supervision manuals and policies and to help improve the overall DOR follow-up
 process. However, we found that under this new policy it would be optional for examiners to require a
 written response to all DOR items in CAMEL 2 credit unions with unresolved DORs. Subsequent to
 receiving a draft of this report, E&I management amended the draft NSPM and will require a written
 response to the examiner for all DOR items not completed within the prescribed timeframe, regardless
 of the credit union’s composite CAMEL rating.
 We found that of the 74 credit unions closed and/or merged from 2008 through 2010, 45 percent had
 been regularly rated a composite CAMEL 1 or 2. The problems were so insurmountable that 18 of
 these credit unions closed or merged about a year after the initial downgrade. We also found that for
 14 of these credit unions examiners noted a total of 55 unresolved DOR items during the last
 examinations where the credit union received a composite CAMEL 1 or 2 rating. We believe NCUA
 examiners considered these credit unions a low risk and therefore did not aggressively pursue timely
 resolutions for the unresolved DOR items. Consequently, NCUA missed opportunities to mitigate
 losses to the National Credit Union Share Insurance Fund (NCUSIF).
 Furthermore, we determined that as of December 31, 2010, NCUA had over 26,000 unresolved DOR
 items which encompassed 63 percent of all federally insured credit unions. We also determined that
 examiners reduced identified areas of unacceptable risk by resolving over 106,000 DOR items.
 Moreover, examiners resolved over 91,000 (86 percent) of these DORs in two years or less.
 As a result, we made three recommendations and one suggestion to correct the deficiencies.
 Management agreed with our findings and recommendations, and has already or is in the process of
 taking corrective action. However, management did not believe it was feasible to implement our
 suggestion.




                                                  16
OIG Semiannual Report                                                      April 1 – September 30, 2011


     AUDITS IN PROGRESS

 NCUA Temporary Corporate Credit Union Stabilization Fund Financial Statement 2010
 Our current contracting audit firm, KPMG, is working on the 2010 financial statements of the NCUA
 Temporary Corporate Credit Union Stabilization Fund (TCCUSF).
 The TCCUSF, established in 2009, allows NCUA to borrow money from the Treasury to pay for
 corporate credit union losses, and then pay back the Treasury over time with funds obtained from
 assessments on federally insured credit unions. Due to extraordinary circumstances related to the
 complexity of this area the audit of these financial statements has taken longer than anticipated. We
 expect to issue our report in October 2011.

 Review of NCUA Asset Management & Assistance Center
 The OIG is conducting a review of the NCUA’s Asset Management Assistance Center (AMAC)
 Property Management. The objectives of this review are to determine the efficiency and
 effectiveness of AMAC’s 1) Policies/procedures and internal controls for the following areas: (a)
 asset recover, (b) liquidations of member services, and (c) accounting services; 2) Payments of
 share accounts including closing out the account or return checks that occur; and 3) Valuation
 process and disposal of property and assets. We are currently conducting fieldwork and plan to
 issue a report in late 2011.

 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security Management Act
 (FISMA) 2011
 The OIG engaged Carson & Associates Inc. to independently evaluate its information systems and
 security program and controls for compliance with the Federal Information Security Management
 Act (FISMA), Title III of the E-Government Act of 2002.
 Carson & Associates Inc. is evaluating NCUA’s security program through interviews, documentation
 reviews, technical configuration reviews, social engineering testing, and sample testing. NCUA is
 being evaluated against standards and requirements for federal government agencies such as
 those provided through FISMA, National Institute of Standards and Technology (NIST) Special
 Publications (SPs), and OMB memoranda. We anticipate issuing the final report in November
 2011.

 NCUA Financial Statements 2011
 Our current contracting audit firm, KPMG, is working on the 2011 financial statements of the NCUA
 Operating Fund, National Credit Union Share Insurance Fund, the Central Liquidity Facility, the
 Community Development Revolving Loan Fund and the Temporary Corporate Credit Union
 Stabilization Fund (TCCUSF).
 The NCUA Operating Fund was established as a revolving fund managed by the NCUA Board for the
 purpose of providing administration and service to the federal credit union system. The National Credit
 Union Share Insurance Fund was established as a revolving fund managed by the NCUA Board to
 insure member share deposits in all Federal credit unions and qualifying state credit unions. The CLF
 was established as a mixed ownership government corporation managed by the NCUA Board to
 improve general financial stability by meeting the liquidity needs of credit unions. And the Community
 Development Revolving Loan purpose is to stimulate economic activities in the communities served by
 low-income credit unions. This in turn will result in increased income, ownership and employment


                                                   17
OIG Semiannual Report                                                        April 1 – September 30, 2011


 opportunities for low-wealth residents and other economic growth. The TCCUSF, established in 2009,
 allows NCUA to borrow money from the Treasury to pay for corporate credit union losses, and then pay
 back the Treasury over time with funds obtained from assessments on federally insured credit unions.
 We expect to issue our report in February 2012.

 Material Loss Review of Vensure Federal Credit Union
 The Federal Credit Union Act requires the NCUA OIG to conduct a material loss review (MLR) of an
 insured credit union if the loss exceeds $25 million. The “Dodd-Frank Wall Street Reform and
 Consumer Protection Act” requires the OIG to assess all losses to the Share Insurance Fund under the
 $25 million threshold and determine if unusual circumstances warrant a MLR. We determined that
 Vensure credit union met this criterion and have elected to conduct an MLR.
 We are in the process of conducting a MLR on Vensure credit union. We will review Vensure to (1)
 determine the cause(s) of the credit union’s failure and the resulting loss to the National Credit Union
 Share Insurance Fund (NCUSIF); and (2) assess NCUA’s supervision of the credit union. To achieve
 these objectives, we will analyzed NCUA examination and supervision reports and related
 correspondence; interview management and staff from NCUA Regional offices; and reviewed NCUA
 guidance, policies and procedures, NCUA Call Reports, and Financial Performance Reports.

 Significant Audit Recommendations on which Corrective Action Has Not Been Completed
 As of September 30, 2011, the following list of OIG reports with unimplemented recommendations
 where management has agreed to implement corrective action but has not completed. This information
 is based on (1) information supplied by NCUA Office of Examination and Insurance and (2) the OIG’s
 report recommendation tracking system.
 Report Number, Title and Date
 OIG-10-20              OIG Capping Report on Material Loss Reviews     November 23, 2010
 Significant Recommendations Open and Brief Summary
 On November 23, 2010 the OIG issued report #OIG-10-20 titled OIG Capping Report on Material Loss
 Reviews. There are 11 open recommendations related to the examination and supervision procedures
 for overseeing credit unions. These issues include documentation, monitoring, ratings, call reports,
 third party relationships, due diligence, exam procedures, quality control reviews and regulatory
 guidance. We have determined that NCUA has made significant progress and is in various stages of
 implementing corrective action on all 11 of these recommendations.

 Report On Credit Union Losses Under Materiality Level of $25 Million

 Section 988 of P.L. 111-203, the “Dodd-Frank Wall Street Reform and Consumer Protection Act” did
 two things relative to material loss reviews (MLR) of failed credit unions.
 First, the threshold for a mandated material loss review was raised to $25 million or greater loss to the
 National Credit Union Share Insurance Fund (NCUSIF or SIF) starting on the implementation date of
 the Act (July 21, 2010) and going forward.
 Second, the NCUA OIG is now required to (1) perform limited reviews of all credit union failures under
 the threshold to assess whether an in-depth review (consistent with the scope of a material loss review)
 is warranted and (2) report to the National Credit Union Administration Board and the Congress every 6
 months on the results of the limited reviews and the timeframe for performing any in-depth reviews we
 determine are necessary.

                                                     18
OIG Semiannual Report                                                            April 1 – September 30, 2011



 This report on losses not reaching $25 million covers the six month period from April 1, 2011 to
 September 30, 2011. For all losses to the SIF under the MLR threshold we determined (1) why
 NCUA initiated assistance and (2) whether any unusual circumstances existed that might warrant
 an in-depth review of the loss.
 For each limited review, we performed procedures that included but were not limited to: 1) obtaining
 and analyzing the regulator’s supervisory memorandum and other pertinent documents; 2)
 preparing a schedule of CAMEL ratings assigned to the institution through full scope or other
 examinations during the five years preceding the failure; 3) conducting interviews as needed; 4)
 inquiring about any investigative actions that were taken, planned, or considered involving credit
 union officials or others; and 5) analyzing supervisory history and other review methods.
 We conducted limited reviews of three failed credit unions that incurred losses to the NCUSIF under
 $25 million between April 1 and September 30, 2011. Based on those limited reviews, we
 determined that one of the losses warranted conducting additional work. For the two failed credit
 unions for which we do not intend to conduct additional work, we concluded that either 1) no
 unusual circumstances presented themselves in our review, or 2) we had already addressed the
 reasons identified for failure in recommendations to the agency in our Material Loss Review
 Capping report or other MLR reports.
 The chart below provides details on the three credit union losses to the NCUSIF of less than $25
 million. It provides details on the credit union such as supervision, date of failure, estimated loss to
 the NCUSIF, and grounds for conservatorship, merger, or other factors. The chart also provides
 our decision whether to terminate or proceed with an MLR of the credit union.

                DECISIONS REGARDING LOSSES LESS THAN $25 MILLION
                                             Date of        Est. Loss to         Grounds for the NCUA
    Decision*   Credit Union     Region
                                             Failure          NCUSIF                 Appointment
                 Mission San                                               Insolvent; low and declining net
                  Francisco                                                worth position, high loan losses,
   Terminate                       II      04/08/2011       $1,250,000
                Federal Credit                                             high delinquency, high operating
                    Union                                                  expenses.
                                                                           Weak management and ineffective
                South DeKalb                                               Board; weak loan underwriting;
                   Church                                                  weak collection program; high
   Terminate                       III     04/08/2011        $330,000
                Federal Credit                                             operating expenses; poor internal
                   Union                                                   controls; inadequately funded ALLL
                                                                           account.
                                                                           Insolvent; material weaknesses in
                  Vensure
   Proceed                                                                 wire and ACH practices due to
                Federal Credit     V       07/11/2011         $39,043
   with MLR                                                                involvement with internet gambling
                   Union
                                                                           activity.

 *Criteria for the decisions included: (1) dollar value and/or percentage of loss; (2) institutions
 background, such as charter type and history, geographic location, affiliations, business strategy; (3)
 uncommon cause of failure based on prior MLR findings; (4) unusual supervisory history, including the
 nature and timing of supervisory action taken, noncompliance with statutory examination requirements,
 and/or indications of rating disagreements between the state regulator and NCUA; and (5) other, such
 as apparent fraud, request by NCUA Chairman or management, Congressional interest, or IG request.



                                                       19
OIG Semiannual Report                                                         April 1 – September 30, 2011


     PEER REVIEWS

 April 1 through September 30, 2011
 Government Auditing Standards require audit organizations that perform audits and attestation
 engagements of federal government programs and operations undergo an external peer review every
 three years. The objectives of an external peer review include a review of an audit organization’s
 system of quality control to determine not only the suitability of the design, but also whether the audit
 organization is in compliance with its quality control system so as to provide reasonable assurance the
 audit organization conforms to applicable professional standards.

 External Peer Review of NCUA OIG Office of Audit
 Although the NCUA OIG did not undergo an external peer review during the current semiannual period,
 the U.S. Securities and Exchange Commission (SEC) OIG completed our most recent peer review on
 May 7, 2010 for the three-year period ending October 31, 2009. The SEC OIG issued its report entitled
 NCUA System Review and rendered the opinion that the system of quality control for the NCUA OIG,
 Office of Audit, was suitably designed and complied with, thus providing reasonable assurance the
 system of controls conformed with applicable professional standards in all material respects. As a
 result, we received a peer rating of pass. In addition, we have no outstanding recommendations from
 this external peer review. A copy of this most recent peer review report is included herein as Appendix
 A.

 External Peer Review of National Labor Relations Board OIG Office of Audit
 Currently, the NCUA OIG is in the process of conducting a peer review of the National Labor Relations
 Board OIG. We plan to complete this review in October 2011. In addition, in compliance with
 Government Auditing Standards for the three year period ended September 30, 2008, the NCUA OIG
 issued an external peer review report on February 5, 2009 to the National Science Foundation (NSF)
 OIG related to its audit function. The NSF OIG reported no outstanding recommendations related to
 this peer review report.




                                                    20
OIG Semiannual Report                                                        April 1 – September 30, 2011




                                    INVESTIGATIVE ACTIVITY

 In accordance with professional standards and guidelines established by the United States Department
 of Justice, the OIG conducts investigations of criminal, civil, and administrative wrongdoing involving
 agency programs, operations and personnel. Our investigative program focuses on activities designed
 to promote accountability, effectiveness, and efficiency, as well as fighting fraud, waste, and abuse in
 agency programs and operations. In addition to our efforts to deter misconduct and promote integrity
 awareness among agency employees, we investigate referrals and direct reports of employee
 misconduct. Investigations may involve possible violations of regulations regarding employee
 responsibilities and conduct, Federal criminal law, and other statutes and regulations pertaining to the
 activities of NCUA employees.

 Moreover, we receive complaints from credit union members and officials that involve NCUA employee
 program responsibilities. We examine these complaints to determine whether there is any indication of
 NCUA employee wrongdoing or misconduct. If not, we refer the complaint to the NCUA Office of
 Consumer Protection (OCP) or the appropriate regional office for response, or close the matter if
 contact with the OCP or the regional office indicates that the complaint has already been appropriately
 handled.

     OIG HOTLINE CONTACTS
 The OIG maintains a toll free hotline to enable employees and citizens to call with information about
 suspected waste, fraud, abuse or mismanagement involving agency programs or operations. We also
 receive complaints through an off-site post office box, from electronic mail, and facsimile messages. All
 information received from any of these sources is referred to as a hotline contact. The OIG hotline
 program is handled by our Office Manager, under the direction of our Director of Investigations. The
 majority of hotline contacts are from consumers seeking help with a problem with a credit union. These
 contacts are referred to the appropriate NCUA regional offices for assistance. During this reporting
 period, we referred 133 consumer complaints to the OCP and regional offices. We referred two
 allegations of potential fraud at credit unions to the NCUA Office of General Counsel.

     INVESTIGATIONS

 Misuse of Government Property; Misuse of Official Time; Violation of Basic Obligation of Public
 Service; Violation of Computer Security Rules of Behavior

 During the reporting period, the FBI contacted the OIG seeking information about and assistance in an
 ongoing FBI investigation of an NCUA employee who had allegedly used his government email to
 contact an online undercover agent posing as a 13-year old girl. With the FBI’s approval, the OIG
 opened a parallel, administrative investigation into the employee for misuse of his government
 computer, misuse of official time, violation of a basic obligation of public service, and violation of the
 agency’s policy on computer security and use. The investigation substantiated all the administrative
 charges. The OIG issued a report of investigation to agency management. The agency has proposed
 the employee’s removal from federal service. The FBI’s case is ongoing.




                                                    21
OIG Semiannual Report                                                     April 1 – September 30, 2011


 Bank Fraud
 During a previous reporting period, the OIG received an allegation that an NCUA employee committed
 bank fraud. The OIG’s investigation found no evidence to support the allegation. The OIG issued a
 report of investigation summarizing the investigation and closing the case.

 Unprofessional Behavior
 During this reporting period, the OIG received an allegation that an NCUA examiner had displayed
 unprofessional behavior while conducting an examination. The preliminary inquiry into the allegation
 determined that there was no substantive basis to open an investigation. The OIG closed the matter to
 file and referred the matter to the appropriate regional office.

 Misuse of Government-Issued Charge Card
 During the current reporting period, the OIG received an allegation that an employee used his
 government-issued charge card for personal expenses in violation of agency policy. The OIG’s
 investigation substantiated the allegation. The investigation also found that the employee had not
 accurately accounted for his transit subsidy reimbursement, an additional violation of agency policy.
 The OIG issued a report of investigation and forwarded it to agency management. The employee
 resigned prior to finalization of the agency’s removal action.

 Negotiating for Employment
 During this reporting period, the OIG received an allegation that an employee was seeking employment
 with a credit union while conducting an examination on-site. This investigation found that while the
 employee’s conduct at the credit union in question did not rise to the level of negotiating for
 employment under the Standards of Ethical Conduct for Employees of the Executive Branch, it was
 inappropriate and unprofessional. The agency issued the employee a letter of reprimand.




                                                  22
OIG Semiannual Report                                                       April 1 – September 30, 2011


     PEER REVIEWS

 April 1 through September 30, 2011
 Section 6(e)(7) of the Inspector General Act of 1978, as amended, requires those OIGs that have
 been granted statutory law enforcement authorities pursuant to the Act, to be periodically reviewed
 by another OIG or a committee of OIGs (Peer Review). The purpose of the peer review is to
 ascertain whether adequate internal safeguards and management procedures exist to ensure that
 the law enforcement powers conferred by the 2002 amendments to the Act are properly
 exercised. The NCUA OIG does not have statutory law enforcement authority; therefore, our
 investigation organization is not required to have a peer review and, to date has neither undergone
 a peer review nor conducted a peer review of another OIG. However, the NCUA Office of
 Investigations intends to participate in the peer review process in the future and is scheduled to
 undergo a peer review in the third quarter of 2013.

     .




                                                   23
OIG Semiannual Report                                                            April 1 – September 30, 2011




                           LEGISLATIVE AND REGULATORY REVIEWS

 Section 4(a) of the Inspector General Act requires the Inspector General to review existing and
 proposed legislation and regulations relating to the programs and operations of the NCUA and to make
 recommendations concerning their impact.           Moreover, we routinely review proposed agency
 instructions and other policy guidance, in order to make recommendations concerning economy and
 efficiency in the administration of NCUA programs and operations and the prevention and detection of
 fraud, waste and abuse.

 During the reporting period, the OIG reviewed 21 items, including proposed legislation, proposed and
 final regulations, NCUA Interpretive Ruling Policy Statements (IRPS) and Letters to Credit Unions.

                          SUMMARY OF STATUTES AND REGULATIONS REVIEWED

           Legislation                                           Title

       H.R. 1418/S. 509       “Small Business Lending Enhancement Act of 2011”

       H.R. 1081/S. 575       “Debit Interchange Fee Study Act”
                              “Consumer Financial Protection Safety and Soundness Improvement Act of
       H.R. 1315              2011”

       H.R. 2340              “Transparency in Government Act of 2011”


         Regulations/Rulings/IRPS                                        Title
       12 CFR Parts 700, 701, 702, 725,
       and 741                            Net Worth and Equity Ratio

       12 CFR Part 701                    Remittance Transfers
                                          Golden Parachute and Indemnification Payments—
       12 CFR Part 750                    Technical Correction

       12 CFR Part 701                    Sample Income Date to Meet the Low-Income Definition

       12 CFR Part 740                    Accuracy of Advertising and Notice of Insured Status

       12 CFR Parts 704, 741 and 750      Golden Parachute and Indemnification Payments

       12 CFR Part 745                    Share Insurance and Appendix

       12 CFR Part 704                    Corporate Credit Unions
                                          Final IRPS (Amending IRPS 95-1 and 02-1): “Supervisory Review
       IRPS 11-1                          Committee”




                                                       24
OIG Semiannual Report                                                         April 1 – September 30, 2011




       Letters to Credit Unions                                   Title
                                  Management Official Interlocks Pertaining to a Federal Credit
       11-0220                    Union (FCU) 08/09/2011
                                  NCUA Share Insurance Coverage for an Inherited Individual Retirement
       11-0241                    Account 06/06/2011
                                  Investment in Insurance Agency as Credit Union Service Organization
       11-0332                    06/03/2011

       11-0358                    Sale of Federal Credit Union Loans 05/05/2011

       11-0642                    Credit Union Service Organization Leasing Activity 08/03/2011

       11-0734                    Musical Instrument Loans as Member Business Loans 08/03/2011

       11-0805                    Hudson Valley FCU Volunteer Service Award Policy 08/18/2011
                                  Conversions from NCUSIF Coverage and TCCUSF Assessments
       11-0824                    08/29/2011




                                                    25
OIG Semiannual Report                                                            April 1 – September 30, 2011




                             TABLE I: INSPECTOR GENERAL ISSUED REPORTS
                                        WITH QUESTIONED COSTS

                                                              Number of Questioned      Unsupported
                                                               Reports    Costs            Costs


                For which no management decision
           A.   had been made by the start of the
                reporting period.                                0          $0                $0

           B.   Which were issued during the
                reporting period.                                0          0                 0



                Subtotals (A + B)                                0          0

           C.   For which management decision was
                made during the reporting period.                0          0                 0



                (i) Dollar value of disallowed costs             0          0                 0

                (ii) Dollar value of costs not allowed
                                                                 0          0                 0
                For which no management decision
           D.   has been made by the end of the
                reporting period.                                0          0                 0
                Reports for which no management
           E.   decision was made within six months
                of issuance.                                     0          0                 0

 Questioned costs are those costs the OIG has questioned because of alleged violations of laws,
 regulations, contracts, or other agreements; findings which at the time of the audit are not supported by
 adequate documentation; or the expenditure for the intended purpose is unnecessary or unreasonable.

 Unsupported costs (included in "Questioned Costs") are those costs the OIG has questioned because
 of the lack of adequate documentation at the time of the audit.




                                                         26
OIG Semiannual Report                                                   April 1 – September 30, 2011




                         TABLE II: INSPECTOR GENERAL ISSUED REPORTS WITH
                        RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE
                                                                    Number of        Dollar
                                                                     Reports         Value


                 For which no management decision had been
           A.
                 made by the start of the reporting period.             0              $0


           B.    Which were issued during the reporting period.         0               0



                                    Subtotals (A + B)                   0               0



                 For which management decision was made
           C.
                 during the reporting period.                           0               0


                 (i) Dollar value of recommendations agreed to
                 by management.                                        N/A            N/A


                 (ii) Dollar value of recommendations not agreed
                 to by management.                                     N/A            N/A


                 For which no management decision was made
           D.
                 by the end of the reporting period.                    0               0


                 For which no management decision was made
           E.
                 within six months of issuance.                         0               0

 Recommendations that "Funds to be Put to Better Use" are those OIG recommendations that funds
 could be used more efficiently if management took actions to reduce outlays, de-obligate funds from
 programs/operations, avoid unnecessary expenditures noted in pre-award reviews of contracts, or any
 other specifically identified savings.




                                                    27
OIG Semiannual Report                                                    April 1 – September 30, 2011




                                   TABLE III: SUMMARY OF OIG ACTIVITY
                                    April 1 through September 30, 2011

                                    PART I – AUDIT REPORTS ISSUED

  Report                                                                                      Date
  Number                                             Title                                   Issued

 OIG-11-01        Material Loss Review of Members United Corporate FCU                     05/04/2011
   OIG-11-
 02/03/04/05      NCUA Financial Statements Audit 2010 (OF, CLF, CDRLF, SIF)               05/12/2011

 OIG-11-06        Review of Facility Security at NCUA’s Central Office                     06/23/2011

 OIG-11-07        Material Loss Review of Beehive CU                                       07/07/2011

 OIG-11-08        Material Loss Review of Certified FCU                                    09/01/2011

 OIG-11-09        Material Loss Review of Constitution Corporate FCU                       09/01/2011

 OIG-11-10        Material Loss Review of Southwest Corporate FCU                          09/22/2011

 OIG-11-11        Review of NCUA’s Document of Resolution Follow-up Process                09/29/2011

                        PART II – AUDITS IN PROGRESS (as of September 30, 2011)


 NCUA Financial Statements Audit 2010 (TCCUSF)

 NCUA Financial Statements Audit 2011
 Independent Evaluation of the NCUA’s Compliance with the Federal Information Security Management
 Act (FISMA) 2011

 Material Loss Review of Vensure FCU

 Review of NCUA Asset Management and Assistance Center (AMAC)




                                                     28
OIG Semiannual Report                                                          April 1 – September 30, 2011




                                  INDEX OF REPORTING REQUIREMENTS


    Section                                     Data Required                                       Page
                                                                                                     Ref

    4(a)(2)     Review of legislation and regulations                                                 24
                Significant problems, abuses, or deficiencies relating to the administration of
    5(a)(1)     programs and operations disclosed during the reporting period.                        12
                Recommendations with respect to significant problems, abuses or
    5(a)(3)     deficiencies                                                                          12
                Significant recommendations described in previous semiannual reports on
    5(a)(3)     which corrective action has not been completed.                                       18
                Summary of matters referred to prosecution authorities and prosecutions
    5(a)(4)     which have resulted.                                                               None
                Summary of each report to the Board detailing cases where access to all
    5(a)(5)     records was not provided or where information was refused.                         None

    5(a)(6)     List of audit reports issued during the reporting period.                             28

    5(a)(7)     Summary of particularly significant reports.                                          12

    5(a)(8)     Statistical tables on audit reports with questioned costs.                            26
                Statistical tables on audit reports with recommendations that funds be put to
    5(a)(9)     better use.                                                                           27
                Summary of each audit report issued before the start of the reporting period
                for which no management decision has been made by the end of the
    5(a)(10)    reporting period.                                                                  None
                Description and explanation of reasons for any significant revised
    5(a)(11)    management decision made during the reporting period.                              None
                Information concerning significant management decisions with which the
    5(a)(12)    Inspector General is in disagreement.                                              None
                An appendix containing the results of any peer review conducted by another
                OIG during the reporting period or, if no peer review was conducted within
                that reporting period, a statement identifying the date of the last peer review
    5(a)(14)    conducted by another OIG.                                                             20
                List of outstanding recommendations from any peer review conducted by
    5(a)(15)    another OIG that have not been fully implemented.                                  None
                A list of any peer reviews conducted by the IG of another OIG during the
                reporting period, including a list of any outstanding recommendations made
    5(a)(16)    that remain outstanding or have not been fully implemented.                        None




                                                        29
OIG Semiannual Report                                        April 1 – September 30, 2011


             APPENDIX A: NCUA SYSTEM REVIEW REPORT (SEC OIG REPORT NO. 478)




                                           30
OIG Semiannual Report        April 1 – September 30, 2011




                        31
OIG Semiannual Report        April 1 – September 30, 2011




                        32
OIG Semiannual Report        April 1 – September 30, 2011




                        33
OIG Semiannual Report        April 1 – September 30, 2011




                        34
